No. 19-430
In the

Supreme Court of the United States
ATHENA DIAGNOSTICS, INC., et al.,
Petitioners,
v.
MAYO COLLABORATIVE SERVICES, LLC, et al.,
Respondents.
On Petition For A Writ of Certiorari to the United
States Court of A ppeals for the Federal Circuit

BRIEF OF THE CHICAGO PATENT
ATTORNEYS AS AMICI CURIAE IN
SUPPORT OF PETITIONERS
Kevin E. Noonan, Ph.D.
Counsel of Record
A ndrea K. Orth
A aron V. Gin, Ph.D.
Jelena J. Libby, Ph.D.
McDonnell Boehnen Hulbert
& Berghoff LLP
300 South Wacker Drive
Chicago, Illinois 60606
(312) 913-0001
noonan@mbhb.com
Counsel for Amici Curiae
November 1, 2019
291764

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  iii
INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . . . . . 1
SUMMARY OF THE ARGUMENT  . . . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
I.

The Federal Circuit Has Misapprehended
t he F u nd a ment a l P u r p o se of T h i s
Court’s Patent Eligibility Framework:
Preventing Preemption of the Public’s
Use of Natural Laws and Phenomena . . . . . . . . . 4
A. Preventing preemption of judicial
exceptions is the overarching purpose
behind the Alice/Mayo analysis . . . . . . . . . . 7
B. The Federal Circuit’s analysis fails
to evaluate the claims as a whole
in determining whether steps of a
claimed method are routine, wellknown, and conventional . . . . . . . . . . . . . . . . 9

II. The Federal Circuit Judges Recognize the
Importance of Diagnostic Methods and
Agree That Properly Limited Diagnostic
Method Claims Including Athena’s Claims
Should Be Patent-Eligible . . . . . . . . . . . . . . . . . . 13

ii
Table of Contents
Page
III. This is an Appropriate Case to Provide
Clarity and Guidance to Lower Courts . . . . . . .  17
A. Prior cases have constituted anomalies
that would not provide the proper
clarity for diagnostic method claims . . . . . 18
B. This case represents an opportune
vehicle to clarify the patent eligibility
test for diagnostic method claims  . . . . . . . 21
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

iii
TABLE OF CITED AUTHORITIES
Page
CASES
Alice Corp. Pty. Ltd. v. CLS Bank Int’l,
573 U.S. 208 (2014)  . . . . . . . . . . . . . . . . . . . . . . . passim
Ariosa Diagnostics, Inc. v. Sequenom, Inc.,
788 F.3d 1371 (Fed. Cir. 2015) . . . . . . . . . . . . 5, 8, 9, 20
Bilski v. Kappos,
561 U.S. 593 (2010)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Cleveland Clinic Found. v.
True Health Diagnostics LLC,
760 F. App’x 1013 (Fed. Cir. 2019) . . . . . . . . . . . . . . . . 8
Cleveland Clinic Found. v.
True Health Diagnostics LLC,
859 F.3d 1352 (Fed. Cir. 2017) . . . . . . . . . . . . . 9, 19, 20
Diamond v. Chakrabarty,
447 U.S. 303 (1980)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Diamond v. Diehr,
450 U.S. 175 (1981) . . . . . . . . . . . . . . . . . . . . . . . passim
Funk Bros. Seed Co. v. Kalo Inoculant Co.,
333 U.S. 127 (1948) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Genetic Techs. Ltd. v. Merial L.L.C.,
818 F.3d 1369 (Fed. Cir. 2016) . . . . . . . . . . . . . . . . . . . 9

iv
Cited Authorities
Page
Le Roy v. Tatham,
14 How. 156 (1853) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Mayo Collaborative Services v.
Prometheus Labs., Inc.,
566 U.S. 66 (2012) . . . . . . . . . . . . . . . . . . . . . . . . passim
O’Reilly v. Morse,
15 How. 62 (1854) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Parker v. Flook,
437 U.S. 584 (1978)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
PerkinElmer, Inc. v. Intema Ltd.,
496 F. App’x 65 (Fed. Cir. 2012) . . . . . . . . . . . . . . . . . . 9
Rapid Litig. Mgmt. Ltd. v. CellzDirect, Inc.,
827 F.3d 1042 (Fed. Cir. 2016) . . . . . . . . . . . . . . . . . . 21
Roche Molecular Sys., Inc. v. CEPHEID,
905 F.3d 1363 (Fed. Cir. 2018) . . . . . . . . . . . . . . . . . . . 9
STATUTES
35 U.S.C. § 101  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
CONSTITUTIONAL PROVISIONS
U.S. Const. art. I, § 8 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

v
Cited Authorities
Page
PATENTS
U.S. Patent No. 7,267,820  . . . . . . . . . . . . . . . . . . . . passim

1
INTEREST OF AMICI CURIAE
The amici curiae are patent practitioners who
regularly prosecute and litigate U.S. patents. The amici
curiae are concerned with preserving the integrity of a
patent system that fosters innovation, and the companies
that commercialize such innovation in the marketplace.1,2
SUMMARY OF THE ARGUMENT
The pending petition for writ of certiorari identifies
issues that fundamentally affect the patent eligibility of all
medical diagnostic tests under 35 U.S.C. § 101 and impact
the proper application of this Court’s jurisprudence. These
issues are of particular importance to advancements in
the medical and healthcare fields that contribute to early
diagnosis, treatment, and prevention of disease.
This amici curiae brief underscores the Federal
Circuit’s struggle to properly interpret and consistently
apply this Court’s holdings in Mayo/Alice. This brief also
illustrates how, despite unanimous agreement among
Federal Circuit judges that the present claims at issue
should be patentable, the lower court feels compelled
by its misinterpretation of this Court’s jurisprudence to
consider an entire class of diagnostic method claims as
being ineligible.
1. No party’s counsel authored this brief in whole or part;
no party or party’s counsel contributed money intended to fund
preparing or submitting the brief; and no person other than amici
or counsel for amici contributed money intended to fund preparing
or submitting the brief. Sup. Ct. R. 37.6.
2. Counsel for the respective parties were provided timely
notice and consented to the filing of this brief. Sup. Ct. R. 37.2(a).

2
In their decision denying Athena’s petition for
rehearing en banc, the judges of the Federal Circuit
demonstrated their deep division regarding proper
application of this Court’s test for determining patent
eligibility under 35 U.S.C. § 101. Several judges expressly
called for guidance from this Court (many reiterating
prior pleas) on the correct eligibility standard. In addition,
the differing opinions among the judges resulted in only
seven of the Federal Circuit judges agreeing with the
per curiam decision to deny rehearing en banc, with the
remaining judges dissenting, producing no fewer than
eight separate opinions to enunciate their divergent views.
There is consensus among the Federal Circuit judges
that sufficiently specific diagnostic method claims with
proven utility should be patentable. However, they differ
on whether this Court’s directive in Mayo Collaborative
Services v. Prometheus Labs., Inc., 566 U.S. 66 (2012),
prevents them from so finding. The majority opinions held
that the Federal Circuit was foreclosed from finding patent
eligibility for Athena’s claims based on Mayo and for them
to hold to the contrary would require refinement of the
test by this Court. Pet App., 61a (Laurie, J., concurring
in denial of rehearing en banc); 62-63a (Hughes, J.,
concurring); 68-69a (Dyk, J., concurring); 90a and 95a
(Chen, J., concurring). The minority, however, believes
that it is the Federal Circuit itself that has misinterpreted
and misapplied the eligibility test. Pet App., 99-101a
(Moore, J., dissenting in denial of rehearing en banc); 121a
(Newman, J., dissenting); 136a (Stoll, J., dissenting); 138a
(O’Malley, J., dissenting).
The eight opinions demonstrate the sharp divide in
the Federal Circuit’s understanding of how this Court’s
decision in Mayo should be interpreted. These opinions

3
also represent a desperate plea for guidance and clarity
from this Court as to how the patent eligibility test should
be applied, particularly as to diagnostic method claims.
Amici curiae submit that the minority is correct
that the Federal Circuit has both misapprehended and
misapplied the legal standard for patent eligibility of
diagnostic method claims, including those of Athena’s
claimed invention. Under this misunderstanding, the
Federal Circuit has (as has been its wont) rigidly applied
this Court’s Alice and Mayo decisions. As a result, the
Federal Circuit has imposed a bright-line ineligibility
rule that ignores the fundamental purpose behind the
patent-eligibility framework established by this Court: if
a claim does not threaten to entirely preempt the public’s
use of a judicial exception (herein, a “law of nature”), the
claim does not constitute patent-ineligible subject matter.
Further compounding its errors, the Federal Circuit has
often misapplied the Alice/Mayo test, as here, by failing
to consider the claims as a whole in determining whether
a specific claimed technique is more than “routine, wellknown, and conventional” and thus patent eligible.
Amici curiae believe that if permitted to stand, this
misapplication of the proper understanding of this Court’s
jurisprudence on patent eligibility now entirely precludes,
and will continue to preclude, protection of any claim
directed to medical diagnostic inventions in the manner
of a per se rule against patenting such inventions. Indeed,
as set forth in Judge Newman’s dissent from denial
of rehearing en banc, the Federal Circuit has upheld
invalidation of each and every diagnostic method claim
that has come before it. Id. at 128a-129a; see also infra
FN 4. Left unchecked, this practice will severely curtail

4
innovation in diagnosis of human disease and will slow
development of medical diagnostic devices in America,
shifting further advances and innovation (and their
benefits that inure to the public) to patent- and innovationfriendlier jurisdictions. For at least these reasons, amici
curiae urge this Court to grant the petition for a writ of
certiorari.
ARGUMENT
I.

The Federal Circuit Has Misapprehended the
Fundamental Purpose of This Court’s Patent
Eligibility Framework: Preventing Preemption of
the Public’s Use of Natural Laws and Phenomena

To promote the progress of science and useful arts,
inventors of “any new and useful process, machine,
manufacture, or composition of matter, or any new and
useful improvement thereof,” may obtain a patent - a
limited right to exclude others from practicing the claimed
inventions. U.S. Const. art. I, § 8, cl. 8; 35 U.S.C. § 101.
While generally accepting the rule that “anything
under the sun made by man” is eligible for patenting, this
Court has carved out certain exceptions from the genus
of “new and useful” patent-eligible inventions. Diamond
v. Chakrabarty, 447 U.S. 303, 309 (1980). Specifically,
the Court considers laws of nature, natural phenomena,
and abstract ideas (hereinafter collectively “the judicial
exceptions”) to be outside the scope of what is patent
eligible. Diamond v. Diehr, 450 U.S. 175, 185 (1981); see
also Bilski v. Kappos, 561 U.S. 593, 601 (2010); Diamond
v. Chakrabarty, 447 U.S. at 309; O’Reilly v. Morse, 15
How. 62, 112–120 (1854); Le Roy v. Tatham, 14 How. 156,
175 (1853).

5
In Alice Corp. Pty. Ltd. v. CLS Bank Int’l., 573 U.S.
208, 217-18 (2014), this Court set forth a two-part test
designed to distinguish between patent-eligible subject
matter and these patent-ineligible judicial exceptions. The
first part of the test requires a determination of whether
a claim is “directed to one of [the] patent-ineligible
concepts,” i.e., the judicial exceptions. Id. If the answer
to this initial determination is “yes”, then the second part
of the test asks whether the claim elements contain an
“inventive concept” sufficient to “‘transform the nature
of the claim’ into a patent-eligible application.” Id. at
217 (quoting Mayo, 566 U.S. at 72-73, 79). To be patenteligible, the “inventive concept” must be “sufficient to
ensure that the patent in practice amounts to significantly
more than a patent upon the [ineligible concept] itself.” Id.
at 72-73 (citing Parker v. Flook, 437 U.S. 584, 594 (1978).
In determining the “sufficiency” of the inventive concept,
this Court directed the lower courts to look to specific
claim elements that add more than what is merely “wellunderstood, routine, conventional activity, previously
engaged in by those in the field.” Mayo, 566 U.S. at 71.
A s the Federal Circuit recognized in Ar iosa
Diagnostics, Inc. v. Sequenom, Inc., the purpose of the
two-part framework is to exclude from patentability those
claims to otherwise useful inventions that do nothing more
than claim a law of nature and thereby preempt the public’s
use thereof. 788 F.3d 1371, 1379 (Fed. Cir. 2015), cert.
denied, 136 S. Ct. 2511 (2016). But this Court recognized
that overly broad interpretations of this exclusionary
principle could “eviscerate patent law” because “all
inventions at some level embody, use, reflect, rest upon,
or apply laws of nature, natural phenomena, or abstract
ideas.” Mayo, 566 U.S. at 71. Accordingly, this Court’s

6
two-part framework was crafted (and should be applied)
narrowly to serve its legitimate purpose—preventing
preemption of the judicial exceptions. This Court has
warned that “a process is not unpatentable simply because
it contains a law of nature or a mathematical algorithm
... and an application of a law of nature or mathematical
formula to a known structure or process may well be
deserving of patent protection.” Diehr, 450 U. S. at 187
(quoting Flook, 437 U.S. at 590); see also Funk Bros.
Seed Co. v. Kalo Inoculant Co., 333 U.S. 127, 130 (1948)
(“If there is to be invention from [a discovery of a law of
nature], it must come from the application of the law of
nature to a new and useful end.”). Further, this Court has
instructed that claims must be viewed as a whole, including
any ordered combination, to properly determine patent
eligibility. Mayo, 566 U.S. at 79-80 (citing Diehr, 450 U.S.
at 187). This Court has not diminished or abandoned these
long-standing precedents, and in accordance with them
the two-part analytical framework should not be applied in
a manner that prevents patenting of useful subject matter
that would not entirely preempt the judicial exception.
Amici curiae respectfully submit that the Federal
Circuit’s decision affirming the invalidity of the asserted
claims of U.S. Patent No. 7,267,820 (“the ’820 patent”)
is in direct contradiction of this Court’s jurisprudence
under 35 U.S.C. § 101. Namely, the Federal Circuit’s
misapprehension of the guiding principle behind this
Court’s two-part analytical framework and the narrow
application intended by this Court have led to considerable
confusion by the Federal Circuit as to how to apply this
framework, as it has recognized itself. See infra FN 4.

7
Accordingly, the Federal Circuit has ignored this
Court’s intent to deny patent eligibility only to claims
that entirely preempt use of a judicial exception. Instead,
the Federal Circuit has rigidly applied its own version of
the patent-eligibility test as a bright-line rule, effectively
condemning all diagnostic method claims to the pit of
patent ineligibility.
A.

Preventing preemption of judicial exceptions
is the overarching purpose behind the Alice/
Mayo analysis

This Court should seize this opportunity to clarify
that the purpose behind its patent-eligibility test set
forth in Alice/Mayo is to ensure that only those claims
that entirely preempt a judicial exception deserve to be
deemed patent-ineligible subject matter under 35 U.S.C.
§ 101. This Court has made clear that “the concern that
drives this exclusionary principle [is] one of preemption.”
Alice Corp. Pty. Ltd. v. CLS Bank Int’l, 573 U.S. 208,
216 (2014); see also Mayo, 566 U.S. at 85 (“The Court has
repeatedly emphasized ... a concern that patent law not
inhibit further discovery by improperly tying up the future
use of laws of nature”).
If preemption is indeed the primar y concern
underlying the Alice/Mayo test and the basis for finding
the judicial exceptions to be ineligible under 35 U.S.C. §
101, in instances where claims do not threaten to entirely
preempt the public’s use of a judicial exception, they should
not be considered patent-ineligible subject matter. Mayo,
566 U.S. at 87. Indeed, in Mayo, this Court found those
claims patent-ineligible because the claims did “not confine
their reach to particular applications of [the natural] laws”

8
and preemption of such laws is “the basic underlying
concern” regarding patent eligibility. Id. Conversely, in
Diehr, this Court held the claims to be patent-eligible
because the patentees did not “seek to pre-empt the use
of the [Arrhenius] equation,” but “only to foreclose from
others the use of that equation in conjunction with all of
the other steps in their claimed process.” 450 U.S. at 187.
The Federal Circuit has fundamentally misunderstood
the importance of preemption in its application of the
Alice/Mayo patent-eligibility test. As a result, the Federal
Circuit has developed a rigid application of the test, all but
ignoring preemption and its effect on patent-eligibility. As
applied by the Federal Circuit, the question of preemption
merely serves to confirm the Federal Circuit’s finding
of patent-ineligibility3, amounting to the “tail wagging
the dog.” In so doing, the Federal Circuit ignores the
fundamental reason that the eligibility question arises in
the first place. Now, even narrowly claimed inventions that
do not entirely preempt use of the judicial exception can
be, and have been as in this case, held to be ineligible. The
Federal Circuit’s analysis has relegated preemption to an
afterthought, where even the lack of preemption carries
no weight in the patent-eligibility determination. This
misunderstanding has resulted in every single diagnostic
method claim the Federal Circuit considered since this
Court’s Mayo decision being found patent-ineligible. 4
3. See, e.g., Ariosa, 788 F.3d at 1379 (“Where a patent’s claims
are deemed only to disclose patent ineligible subject matter under
the Mayo framework, as they are in this case, preemption concerns
are fully addressed and made moot.”).
4. See, e.g., Cleveland Clinic Found. v. True Health Diagnostics
LLC, 760 F. App’x 1013 (Fed. Cir. 2019) (diagnostic test that can be

9
In view of the Federal Circuit’s inability to properly
appreciate the fundamental basis for the ineligibility
standards enunciated in Alice and Mayo, this Court’s
timely direction and guidance is clearly necessary.
B. The Federal Circuit’s analysis fails to evaluate
the claims as a whole in determining whether
steps of a claimed method are routine, wellknown, and conventional
When determining whether a claim is directed to
patent-eligible subject matter under § 101, this Court
requires consideration of the claim elements both
individually and as a whole (i.e., as an ordered combination
of elements). Alice Corp. Pty. v. CLS Bank Int’l, 573 U.S.
at 217 (“we consider the elements of each claim both
individually and ‘as an ordered combination’”); Mayo, 566
U.S. at 79-80. The holding that “claims must be considered
as a whole” with regard to patent eligibility dates back
at least to Diehr, 450 U.S. at 188, which mandates that
used to determine whether an individual is at a lower risk or higher
risk of developing or having cardiovascular disease found patent
ineligible); Roche Molecular Sys., Inc. v. CEPHEID, 905 F.3d 1363
(Fed. Cir. 2018) (methods for detecting the pathogenic bacterium
Mycobacterium tuberculosis (MTB) found patent ineligible);
Cleveland Clinic Found. v. True Health Diagnostics LLC, 859 F.3d
1352 (Fed. Cir. 2017) (methods for assessing risk of cardiovascular
disease found patent ineligible); Genetic Techs. Ltd. v. Merial L.L.C.,
818 F.3d 1369 (Fed. Cir. 2016) (method for amplifying and analyzing
correlations between different regions of DNA sequence found patent
ineligible); Ariosa, 788 F.3d 1371 (prenatal methods of detecting
paternally inherited cffDNA in maternal plasma or serum found
patent ineligible); PerkinElmer, Inc. v. Intema Ltd., 496 F. App’x
65 (Fed. Cir. 2012) (screening methods to estimate the risk of fetal
Down syndrome found patent ineligible).

10
“[i]t is inappropriate to dissect the claims into old and
new elements.” These requirements articulated by
this Court recognize that “all inventions at some level
embody, use, reflect, rest upon, or apply laws of nature,
natural phenomena, or abstract ideas” (Mayo, 566 U.S.
at 72) and that “‘a new combination of steps in a process
may be patentable even though all the constituents of the
combination were well known and in common use before
the combination was made.’” Id. at 79 (quoting Diehr, 450
U.S. at 188). In Mayo, this Court expressly acknowledged
that these directives from Diehr remain good law. Id.
However, the Federal Circuit, on its own initiative,
has ignored this precedent and routinely dissects claim
elements into new and old parts in assessing patent
eligibility. For example, the Federal Circuit (and district
courts below following, as they must, the Federal
Circuit’s application of patent ineligibility jurisprudence)
has focused on whether the claim limitations could be
practiced using routine and conventional means. This
is error; the proper inquiry according to this Court is
whether the claim limitations themselves were routine
and conventional in the context of the claims as a whole.
The Federal Circuit’s precedent prompted the
district court decision to find Athena’s claims ineligible.
However, Athena’s claims are demonstrably patent eligible
because they are like the patent eligible claims in Diehr,
and distinguishable from the patent-ineligible claims in
Mayo on several grounds. First, Athena’s claims, when
viewed as a whole, are directed to a method for diagnosing
myasthenia gravis (“MG”) comprising novel, man-made
reagents to detect a MuSK autoantibody complex. In
particular, contacting bodily fluids with man-made, labeled

11
MuSK antigenic epitopes is novel and not a “routine, wellunderstood and conventional” process as contemplated by
this Court’s two-part Alice/Mayo analytical framework.
Although making a labeled MuSK epitope and using
it to detect MuSK antibodies could be practiced using
conventional and routine methods (as Athena’s ʼ820
patent discloses and both the Federal Circuit and District
Court noted), making a labeled MuSK epitope and using
it to detect MuSK antibodies had never been done before
the invention in the ’820 patent. Thus, Athena’s claimed
process is not conventional or routine—it is novel. Whether
a claim recites the practice of conventional and routine
methods well-known in the art (as was the case in Mayo)
when viewing the specific claim as a whole is a wholly
different issue than whether separate claim limitations
can be practiced using conventional and routine methods.
The second part of this Court’s two-part framework
commands consideration of the former, not the latter.
The inventors of the ’820 patent did not merely discover
a new natural phenomenon (i.e., the correlation between
MuSK autoantibodies in bodily fluid and myasthenia
gravis). Rather, they invented a new application of
that discovery directed to a new method for detecting
myasthenia gravis by employing novel, man-made
reagents. The use of these novel reagents contributed
“something more than” or “in addition to” any natural law
upon which detection relied, making the methods steps
not “routine, well-understood and conventional” as that
phrase should be understood from Mayo. However, the
Federal Circuit, like the district court, failed to consider
the claims as a whole in analyzing the second step of the
Alice/Mayo test. Rather, the Federal Circuit separated
features of the claim and looked to whether the methods

12
underlying specific claimed steps were “routine” and
“conventional.” In other words, the Federal Circuit’s
analysis centered on whether immunoprecipitation and
radiolabeling, 5 in general, were routine and conventional
in the scientific arts. What this Court’s Alice/Mayo test
requires is for the Federal Circuit to determine whether
immunoprecipitation and radiolabeling of these novel,
man-made compounds in accordance with the claimed
method were routine and conventional, when viewing the
claims as a whole. Thus, both the Federal Circuit and the
5. Claims 7–9 depend from claim 1 (not at issue in this Appeal),
the language of which is inserted in italics for clarity:
7. A method for diagnosing neurotransmission or
developmental disorders related to muscle specific
tyrosine kinase (MuSK) in a mammal comprising
the step of detecting in a bodily fluid of said mammal
autoantibodies to an epitope of muscle specific
tyrosine kinase (MuSK), comprising contacting
MuSK or an epitope or antigenic determinant thereof
having a suitable label thereon, with said bodily
f luid, immunoprecipitating any antibody/MuSK
complex or antibody/MuSK epitope or antigenic
determinant complex from said bodily f luid and
monitoring for said label on any of said antibody/
MuSK complex or antibody/MuSK epitope or antigen
determinant complex, wherein the presence of said
label is indicative of said mammal is suffering from
said neurotransmission or developmental disorder
related to muscle specific tyrosine kinase (MuSK).
8. A method according to claim 7 wherein said label is
a radioactive label.
9. A method according to claim 8 wherein said label
is 125I.
’820 patent, col. 12, l. 62–col. 13, l. 9.

13
district court confused the fact that the claimed method
could be used in a routine and conventional manner
with the fact that the method itself was not routine or
conventional.
This Court’s guidance is critical to proper application
of the proper test of patent eligibility by the Federal
Circuit and district courts that will save important
and useful diagnostic methods claimed with specificity
from being “swallow[ed]” by improper and overbroad
application of the judicial exceptions set forth by this
Court. Alice, 573 U.S. at 217.
II. The Federal Circuit Judges Recog nize the
Importance of Diagnostic Methods and Agree
That Properly Limited Diagnostic Method Claims
Including Athena’s Claims Should Be PatentEligible
Methods of diagnosing disease are “useful”, as
soundly recognized by the Federal Circuit judges. See,
e.g., Pet. App., 63a (Hughes, J., concurring in denial of
rehearing en banc), 71a (Dyk, J., concurring), 94a (Chen,
J., concurring), 96-97a and 102a (Moore, J., dissenting),
and 120a (Newman, J., dissenting). But as they emphasize,
diagnostic methods go far beyond “usefulness”; rather,
they are of increasingly vital importance to our healthcare
system, by both improving availability to rapid, accurate,
and safe tests for diagnosis and treatment of lifethreatening illnesses, and decreasing costs of treatment
by reducing the need for more expensive treatments.
As Judge Moore noted, diagnostic methods are “critical
to treating illnesses and saving lives [and] money
through early detection [reducing] the need for high cost

14
pharmaceuticals or curative procedures.” Pet. App. 102a.
In their dissents, both Judge Moore and Judge Newman
emphasized the chilling effect within the diagnostic
industry. Pet App., 102-104a, 106-109a (“[t]he math is
simple . . . [w]ithout [dependable] patent protection to
recoup the enormous R&D cost, investment in diagnostic
medicine will decline”); id. at 131-133a (“the public interest
is poorly served by adding disincentive to the development
of new diagnostic methods” and such a “severe criticism
. . . presented by the entire industry, and stressed by
thoughtful scholars[ ] warrants judicial attention.’”).
As with other technologies that require robust
patent protection to spur investment and commercial
development, medical diagnostic technologies require
some term of exclusivity to enable a reasonable expectation
of return on development costs. Research and development
of novel diagnostic tests often take years, and associated
costs can be tens or hundreds of millions of dollars, with no
guarantee of success. It would be foolhardy to think that
industry will undertake such risks without the availability
of robust patent protection. The Federal Circuit’s overly
stringent application of this Court’s eligibility criteria
has foreclosed diagnostic method claims from patent
eligibility, eliminating any reasonable expectation of
recouping the extraordinary costs of development, an
outcome foreseen by this Court and properly cautioned
against in its patent eligibility decisions. Mayo, 566 U.S.
at 71, 92. Excluding diagnostic testing methods from the
ambit of patent protection creates financial disincentives
to the development and commercialization of such tests,
with attendant harm to public health and private wellbeing.

15
Almost all of the separate opinions in the Federal
Circuit’s denial of Athena’s request for rehearing en banc
recognize the importance of diagnostic method claims
to affordable and rapid diagnosis and treatment of lifethreatening illnesses. Perhaps most forthrightly, Judge
Moore, in her dissent, makes this point clear:
This is not a case in which the judges of this
court disagree over whether diagnostic claims,
like those at issue in Athena, should be eligible
for patent protection. They should. None of my
colleagues defend the conclusion that claims to
diagnostic kits and diagnostic techniques, like
those at issue, should be ineligible. The only
difference among us is whether the Supreme
Court’s Mayo decision requires this outcome.
Pet. App. 96a; also 102-109a.
The Federal Circuit judges also agree that, when
properly limited in scope, diagnostic method claims should
be patent-eligible. However, as Judge Moore identifies,
the Federal Circuit judges differ on whether this Court’s
precedent in Mayo forecloses a finding of patent eligibility.
For example, in his concurrence of the denial of the petition
for rehearing en banc, Judge Hughes, joined by Chief
Judge Prost and Judge Taranto, acknowledged that “the
bottom line for diagnostics patents is problematic” but
laments that “further explication of eligibility standards”
from this Court are necessary to “permit patenting of
essential life saving inventions” of diagnostic patents.
Pet. App. 62-63a.

16
Judge Dyk, in his concurrence, likewise acknowledges
that “there is no doubt that determining the relationship
between specific genetic abnormalities and specific
diseases constitutes an important discovery with proven
utility.” Pet. App. 70a. Judge Dyk continues that some
of Athena’s claims “could be patent eligible” if this
Court were “to refine the Mayo framework to allow for
sufficiently specific diagnostic patent claims with proven
utility.” Pet. App. 69-71a, 76-77a.
Similarly, Judge Chen, in his concurrence, recognizes
that new medical diagnostic methods:
[I]ntuitively seem to be the kind of subject
matter the patent system is designed for: to
encourage the risky, expensive, unpredictable
technical research and development that people
would not otherwise pursue in the hope that if
they discover something of great medical value,
then they will be protected and rewarded for
that successful effort with a patent.
Pet. App. 94a. Judge Chen goes on to conclude that
“practical application[s] of the discovered law of nature . . .
is applied science in every sense of that term” and “should
be patentable subject matter in a well-functioning patent
system.” Pet. App. 94-95a.
In dissent, Judge Newman similarly found that
Federal Circuit has “mistakenly enlarged the [holding in
Mayo], in substance and in application.” Pet. App. 121a.
According to Judge Newman, proper interpretation and
application of Mayo, together with statute, precedent, and
policy, support finding of Athena’s claims patent-eligible.
Pet. App. 121-132a.

17
In her dissent, Judge Stoll was equally concerned with
over-reach and the flawed bright-line rule of eligibility for
all diagnostic claims adapted by the Federal Circuit after
Mayo. Pet. App. 135-136a. However, Judge Stoll noted that
“[c]ertain diagnostic claims, such as the ones at issue in
this case, are so narrowly tailored that preemption is not
a reasonable concern.” Pet. App. 137a.
The Federal Circuit’s pointed and conflicting opinions
illustrate the judges’ confusion when analyzing diagnostic
method claims and reveal their growing frustration in
feeling that their hands are tied. They plead for this
Court’s guidance as to the patent eligibility analysis for
diagnostic method claims. See, e.g., Pet. App., 119a (Moore,
J., dissenting in denial of rehearing en banc) (“No need to
waste resources with additional en banc requests. Your
only hope lies with the Supreme Court or Congress.”).
III. This is an Appropriate Case to Provide Clarity and
Guidance to Lower Courts
Since this Court’s decision in Mayo, the Federal
Circuit has held every diagnostic patent claim it has
considered to be patent-ineligible subject matter under
35 U.S.C. § 101. See supra FN 4. However, Mayo was not
a conventional diagnostic method case and differed in
significant ways from the cases the Federal Circuit has
invalidated in its name. For example, every limitation
recited in the Mayo claims was known and practiced in the
prior art; the only novelty in those claims was the natural
law wherein detecting amounts of the administered drug
below a certain threshold informed the skilled worker that
too little of the conventional drug had been administered,
and detecting amounts above another, higher threshold

18
informed that worker that too much of the conventional
drug had been administered. None of the diagnostic
method claims rendered patent-ineligible by the Federal
Circuit, including Athena, have been “on all fours” with
the facts in Mayo, and yet none of these earlier cases has
provided the appropriate vehicle to clarify the patent
eligibility framework as applied to diagnostic method
claims.
A.

Prior cases have constituted anomalies that
would not provide the proper clarity for
diagnostic method claims

The issue presented in Mayo was an anomaly
because the claimed method and drugs were not new—
they had already been in practice by physicians and the
claimed steps added nothing new to this well-known
and conventional method. Specifically, Mayo involved
claims to a conventional process that preempted a law
of nature (i.e., the amount of thiopurine drug optimal for
treatment of Crohn’s disease and other inflammatory
diseases and disorders). This Court determined that the
claims involved “well-understood, routine, conventional
activity previously engaged in by researchers in the
field.” Mayo, 566 U.S. at 73 (emphasis added). Indeed,
doctors routinely administered thiopurine drugs to
treat patients with autoimmune disorders at the time
Prometheus’s application was filed, and methods for
measuring thiopurine metabolite 6-thioguanine levels
were well known in the art and had been routinely used to
investigate the efficacy and toxicity of thiopurine drugs.
Id. at 78-79. There was no “inventive concept” recited in
the “wherein” clauses in the Mayo claims, which merely
set forth a natural law relating the amount of a metabolite

19
in a patient’s red blood cells and therapeutic efficacy of
treatment with the thiopurine drug. Id. As a result, this
Court found the process claims ineligible subject matter
or otherwise “risk disproportionately tying up the use of
the underlying natural laws, inhibiting their use in the
making of further discoveries.” Id. at 73.
In Mayo, this Court determined that, aside from
the correlation between 6-thioguanine metabolite levels
and optimal thiopurine drug dose, the claims recited a
combination of methods steps (administering a thiopurine
drug and measuring the metabolites) that were known and
had been practiced in the prior art, i.e., the combination
of steps lacked novelty. Id. at 78-79. As a consequence, in
this Court’s view, the claim sought to patent a prior art
process by differentiating it based solely on the discovery
of a natural phenomenon and the new knowledge derived
from it. To make use of the natural phenomenon, the public
would necessarily have to practice the claimed method. Id.
at 79. The claimed invention thereby entirely preempted
the public’s use of the natural phenomenon, leading this
Court to conclude that the claim was ineligible for patent
protection under 35 U.S.C. § 101.
Claims directed to methods not previously practiced
in the prior art have also been routinely invalidated by
the Federal Circuit. For example, the claims in Cleveland
Clinic Found. v. True Health Diagnostics LLC were
directed to methods for assessing risk of cardiovascular
disease in a patient by detecting myelopeoxidase (“MPO”)
in blood and correlating the presence of MPO to a patient’s
risk for cardiovascular disease. 859 F.3d 1352, 1362-63
(Fed. Cir. 2017), cert. denied, 138 S. Ct. 2621 (2018). The
Federal Circuit held the claims in Cleveland Clinic to

20
be patent-ineligible because they “merely” detected a
previously known link between MPO and cardiovascular
disease, employing only naturally occurring products in
a blood sample, and correlating the naturally occurring
presence of MPO to cardiovascular disease using routine
methods. Id. at 1362.
In Ariosa, the claims were directed to methods
amplifying previously unknown cell-free fetal DNA
(“cffDNA”) in a plasma or serum sample obtained from a
pregnant female and detecting the paternally-inherited
cffDNA, which is naturally occurring in the maternal
blood. 788 F.3d at 1376. The Federal Circuit found these
claims patent-ineligible because they “merely” detected a
natural phenomenon, employing only naturally occurring
products in a blood or serum sample using routine
methods of amplification. Id. at 1377. The court reached
this conclusion despite the acknowledged novelty of
finding cffDNA in maternal blood and the novel, beneficial
methods that detection provided. Id. at 1377. See also id.
at 1381.
These cases illustrate the Federal Circuit’s confusion
and failure to distinguish between those diagnostic method
claims that are similar to those held patent-ineligible in
Mayo and those that are dissimilar to the Mayo claims.
The claims at issue in this case are yet another example
of the consequences of the Federal Circuit’s failure to
identify the difference between the two.

21
B. This case represents an opportune vehicle to
clarify the patent eligibility test for diagnostic
method claims
The present claims recite method steps unknown in
the prior art that rely on novel, man-made compositions.
Practicing the claimed methods using these novel manmade compositions produces a new, different, more
sensitive, and beneficial result unknown in the prior art
that, while relying on natural laws (as all inventions must),
does more than just recite a natural law and instruct the
skilled man to “apply it.” Mayo, 566 U.S. at 72. By using
novel, man-made reagents in the method, the claims
transcend merely applying a law of nature to what is
“routine, well-understood and conventional”—the manmade reagents, being novel, are anything but routine,
well-understood, or conventional, and their inclusion by
itself should extricate the recited method steps from this
Court’s penumbra of judicial exceptions.
The inventors of the ’820 patent discovered a
previously unknown correlation between MuSK antibodies
and myasthenia gravis and then applied that discovery
through invention of a method to accurately detect
that correlation, “employ[ing] their natural discovery
to create a new and improved way of” determining a
form of myasthenia gravis. Rapid Litig. Mgmt. Ltd. v.
CellzDirect, Inc., 827 F.3d 1042, 1048 (Fed. Cir. 2016). Such
a discovery and implementation of knowledge to develop
a new and useful tool is (and should be) patent eligible.
The claims before this Court do not entirely preempt
the public’s use of the natural phenomenon of the
correlation between MuSK antibodies in bodily fluids

22
and myasthenia gravis. Indeed, implementation of such
technique preempts neither the use nor detection of the
discovered natural phenomenon, but only the combined
technique using man-made components that are claimed.
The claimed method is narrow and limited in scope. The
scope of the claims does not encompass an unlabeled
MuSK/antibody complex naturally formed in bodily fluid.
If new methods of detecting either the naturally made
MuSK/antibody complex are discovered at a later date,
they can be freely practiced without infringing Athena’s
claims. If future research discovers that the presence
of MuSK/antibody in body fluids correlates to a disease
state other than myasthenia gravis, such an application
is not preempted by the claims in the ’820 patent. And if
treatment for a disease is developed which is directed to
the natural MuSK/antibody complex, the claims of the
’820 patent do not preempt such a treatment.
Proper application of this Court’s patent eligibility
framework reveals that Athena’s diagnostic method claims,
like those in Diehr, that rely on a natural phenomenon
(the correlation between myasthenia gravis and MuSK
antibodies in bodily fluids) do not entirely preempt use of
the natural phenomenon. These claims provide this Court
with an opportunity to clarify the framework of patent
eligibility and its proper application for lower courts.

23
CONCLUSION
The guiding principle of the Alice/Mayo two-part
framework is to exclude claims that entirely preempt
the public’s use of a law of nature or natural phenomena
because such claims impede progress in the useful arts.
The Federal Circuit’s application of the Alice/Mayo twopart framework disregards this purpose and has resulted
in disincentives for skilled artisans to develop new and
useful diagnostic inventions.
Diagnostic methods, such as the claims at issue, are
at particular risk because they rely heavily and directly
on laws of nature and natural phenomenon. While the
Federal Circuit professes formal compliance with this
Court’s Alice/Mayo test with regard to patent-eligibility
of diagnostic method claims, its incorrect, overreaching
interpretation of this Court’s framework has evolved
into rigid application of a bright-line, per se rule that
precludes patents from this entire technology area. The
Federal Circuit’s misapplication of this Court’s mandate
has resulted in invalidation of every diagnostic method
claim considered by that court since Mayo.
The deep divide in the Federal Circuit over how to
properly apply this Court’s patent-eligibility test and that
court’s plea for guidance demonstrate that this issue will
not be resolved without direct intervention by this Court.
The proper balance can be achieved only by applying the
Alice/Mayo two-part framework in a narrow fashion,
as this Court did in Mayo, so that diagnostic methods
that do not entirely preempt a law of nature or natural
phenomenon may be patent eligible. Accordingly, the
amici curiae urge this Court to grant Athena’s petition
for a writ of certiorari.

24
Respectfully Submitted,
Kevin E. Noonan, Ph.D.
Counsel of Record
A ndrea K. Orth
A aron V. Gin, Ph.D.
Jelena J. Libby, Ph.D.
McDonnell Boehnen Hulbert
& Berghoff LLP
300 South Wacker Drive
Chicago, Illinois 60606
(312) 913-0001
noonan@mbhb.com
Counsel for Amici Curiae
November 1, 2019

